DEPARTMENT OF HOMELAND SECURITY
Russell.lundberg

            Office of Inspector General

    A Review of CBP and ICE Responses to Recent
      Incidents of Chinese Human Smuggling in
             Maritime Cargo Containers
                      (Redacted)




The Department of Homeland Security, Office of Inspector General, has redacted this report for public release.
A review under the Freedom of Information Act will be conducted upon request.




OIG-07-40
  OIG-07-40                                                                         May 2007
                                                                                      April 2007
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                             April 23, 2007

                                              Preface

The Department of Homeland Security Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General Act
of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This review examined how Customs and Border Patrol (CBP) and Immigration and Customs
Enforcement (ICE) responded to three incidents of Chinese human smuggling in maritime cargo
containers that occurred in January and April 2005, and April 2006. We reviewed the lessons that
CBP and ICE learned from the incidents, as well as any modifications they made to their programs
and operations as a result.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                            Richard L. Skinner
                                            Inspector General
Table of Contents

  Executive Summary .........................................................................................................................1

  Background ......................................................................................................................................2

  Results of Review ............................................................................................................................9

          CBP Strengthened the Customs-Trade Partnership Against Terrorism
          Program as a Result of Incidents ............................................................................................9

          Incidents Highlighted Container Security Initiative Program’s
          Inherent Limitations..............................................................................................................12

          CBP Modified Targeting Activities ......................................................................................17

          CBP Modified Enforcement Activities.................................................................................21

          CBP Ports of Los Angeles/Long Beach and Seattle/Tacoma
          Prepared for New Smuggling Season ...................................................................................24

          ICE Improved Coordination of Investigations With the Chinese
          Government, but Coordination With CBP Needs Improvement ..........................................25

  Management Comments and OIG Analysis ..............................................................................30

Appendices
  Appendix A:            Purpose, Scope, and Methodology .......................................................................34
  Appendix B:            Management Response to Draft Report ...............................................................35
  Appendix C:            Congressional Request Letter...............................................................................40
  Appendix D:            CBP and ICE Modifications Made in Response to Incidents ..............................44
  Appendix E:            Major Contributors to This Report.......................................................................46
  Appendix F:            Report Distribution...............................................................................................47




                        A Review of CBP and ICE Responses to Recent Incidents of Chinese
                                Human Smuggling in Maritime Cargo Containers
Table of Contents

Acronyms
  CBP              Customs and Border Protection
  CSI              Container Security Initiative
  C-TPAT           Customs-Trade Partnership Against Terrorism
  DHS              Department of Homeland Security
  ICE              Immigration and Customs Enforcement
  MOU              Memorandum of Agreement
  OIG              Office of Inspector General, DHS
  USCG             United States Coast Guard




           A Review of CBP and ICE Responses to Recent Incidents of Chinese
                   Human Smuggling in Maritime Cargo Containers
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                 This review was conducted in response to a request from members of the U.S.
                 Senate’s Committee on Homeland Security and Governmental Affairs and the
                 House of Representatives’ Committee on Homeland Security and Committee
                 on Energy and Commerce. They requested that we review three incidents of
                 Chinese human smuggling in maritime cargo containers to determine what
                 lessons Customs and Border Protection (CBP) and Immigration and Customs
                 Enforcement (ICE) learned from the incidents and what changes, if any, they
                 made as a result of them. In particular, we examined the effects of the
                 incidents upon CBP’s Customs-Trade Partnership Against Terrorism (C-
                 TPAT), Container Security Initiative (CSI), and U.S. targeting and
                 enforcement procedures, as well as the ICE investigations of the incidents.

                 After the three incidents, CBP and ICE modified their operations to improve
                 the deterrence and detection of Chinese stowaways in maritime cargo
                 containers. CBP broadened C-TPAT minimum-security criteria compliance
                 to its members’ non-C-TPAT partners and is negotiating expansion of CSI to
                 ports at which the containers were laded. Domestic port targeting and
                 enforcement measures improved, as well. ICE modified its methods for
                 exchanging information with the Chinese government to facilitate information
                 exchange. However, during our fieldwork ICE and CBP did not reveal to us
                 any formal procedures for coordinating response to incidents of human
                 smuggling at the ports, which may have had a negative effect on the
                 investigation of one of the incidents.

                 We made three recommendations, directing two to CBP and one to CBP and
                 ICE. CBP and ICE concurred with our recommendations, and their actions
                 taken enabled us to close the second and third recommendations. The first
                 recommendation remains open.




                A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                               Smuggling in Maritime Cargo Containers
                                              Page 1
Background
              While human smuggling in maritime containers accounts for only a small
              portion of illegal entries into the United States, it presents risks to the life and
              health of the stowaways and illustrates national security vulnerabilities in
              maritime commerce. Since April 1998, there have been 23 known incidents
              of Chinese nationals being smuggled into the United States via maritime cargo
              containers. Six additional smuggling attempts were intercepted at foreign
              locations before they arrived in the United States. Of the 23 incidents, 15
              were discovered at Los Angeles/Long Beach ports and 8 at Seattle/Tacoma
              ports. Through the year 2000, containers used in the incidents were laded
              onto the vessel in Hong Kong, but containers in later incidents were laded at
              ports on the Chinese mainland or in Busan, Korea. The three most recent
              incidents were discovered between January 15, 2005, and April 5, 2006.

              On January 15, 2005, Customs and Border Protection (CBP) and the U.S.
              Coast Guard (USCG) apprehended 32 Chinese nationals after they attempted
              to enter the United States via two cargo containers arriving in the port of Los
              Angeles, California. The containers were laden in Shekou, China, and had
              been modified to support life and to assist the eventual escape of the
              stowaways. Routine targeting revealed discrepancies on the manifests, and
              CBP ordered the containers held for examination, but the stowaways were
              discovered before the containers were discharged from the vessel. CBP and
              the USCG responded initially, detaining all known stowaways. ICE took
              custody of the stowaways while their asylum status was determined and began
              to investigate the incident.

              On April 3 and 4, 2005, port security and CBP apprehended 29 Chinese
              nationals after they attempted to illegally enter the United States via two cargo
              containers discharged in the Port of Los Angeles. As with the January 2005
              incident, the containers were laden in Shekou, China, and were modified to
              support life and to assist the eventual escape of the stowaways. Targeters
              (CBP officers who target containers for inspection) placed a hold for
              examination on one of the containers due to discrepancies on the manifest.
              After the vessel discharged the containers, but before CBP examined the
              questionable container, the stowaways exited the containers and dispersed into
              the terminal yard. Port security spotted the stowaways and contacted CBP
              and ICE to respond. CBP and ICE detained 29 Chinese nationals, but 2
              additional stowaways breached the perimeter and escaped. ICE took custody
              of the stowaways while their asylum status was determined and began to
              investigate the incident.


             A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                            Smuggling in Maritime Cargo Containers
                                           Page 2
 On April 5, 2006, CBP apprehended 22 Chinese nationals after they attempted
 to illegally enter the United States in a cargo container discharged at the Port
 of Seattle. This container was laden in Shanghai, China, and was minimally
 modified. CBP targeters at the Port of Seattle placed a hold on the container
 for examination. On the morning of arrival, but before CBP examined the
 container, the stowaways exited the container and were discovered by
 terminal security in the terminal yard. CBP coordinated the response with
 ICE, USCG, and other law enforcement authorities. ICE took custody of the
 stowaways while their asylum status was determined and began to investigate
 the incident.




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 3
 Ports of Los Angeles/Long Beach and Seattle

 Together, the ports of Los Angeles and Long Beach comprise the largest port
 in the Nation. The ports cover 35 miles of waterfront and receive 42% of all
 seaborne containers that arrive in the United States. CBP administers both
 ports together under a single CBP office and port director. Los Angeles/Long
 Beach CBP targeters screen 12,000 containers a day and 31,000 crewmembers
 and passengers a week.

 The Port of Seattle is the eighth most active port in the Nation, with three
 international container terminals. Due to their proximity, CBP administers the
 ports of Seattle, Tacoma, and several smaller ports in Washington under a
 single office and area port director. The ports are 20 miles apart and require
 separate enforcement teams.

 The port authorities at Los Angeles/Long Beach and Seattle lease their
 terminals to private entities. The lessees, known as terminal operators, are
 responsible for terminal security, in accordance with federal and international
 standards. Terminal operators schedule the arrival and departure of vessels, as
 well as the discharge and release of cargo. Cargo discharge is the unloading
 of cargo from the vessels onto the terminals. CBP allows cargo to be moved

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 4
 from the terminal only after it has been subjected to all enforcement activities
 CBP requires, such as examination and radiation detection.

 CBP Layers of Security

 CBP maintains several layers of security to protect the United States against
 in-bound cargo and people that may present threats of terrorism or breaches of
 customs and immigration laws, such as the import of illegal drugs, banned
 agricultural products, and products violating intellectual and property rights.
 In the case of Chinese stowaways, preventing the stowaways from loading
 into containers or intercepting the containers offshore is especially important
 because Chinese stowaways are coached to give fictitious reasons for asylum,
 which provides them legal status in the United States. There is no practical
 way to investigate or question their claims. Therefore, intercepting the
 containers before they reach U.S. soil and the stowaways obtain asylum rights
 would prevent the award of legal status to those who use duplicitous means to
 get it.

 Two CBP layers of security, the Customs-Trade Partnership Against
 Terrorism (C-TPAT) and the Container Security Initiative (CSI), extend
 border protection beyond U.S. boundaries. C-TPAT is a partnership with
 members of the shipping industry that works to improve security and prevent
 the transmission of illegal goods into the United States. CSI is a partnership
 with foreign governments that allows CBP’s targeters in host countries to
 target all containers and refer containers suspected of national security threats
 to host governments for inspection.

 In addition, CBP targeters at domestic ports can prevent containers suspected
 of posing a high risk to national security from entering the United States.
 They begin targeting containers before the containers are loaded onto vessels
 bound for the United States. When the targeters determine that a container
 poses a national security risk, they may issue a Do Not Load order on the
 container, which prevents the container from being laded at a foreign port, or
 from being discharged in the United States. However, the threshold for
 issuing this order is so high that it is rarely done. Accordingly, C-TPAT and
 CSI are the primary means by which containers carrying stowaways will be
 prevented from entering the United States.

 When CBP domestic targeting indicates that a container is suspicious, but the
 evidence is not strong enough to issue a Do Not Load order, the domestic
 targeters will order an examination of the container once it reaches the
 domestic port. CBP enforcement teams work with terminal operators to

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 5
 examine containers before they are released from the terminal into the United
 States.

 Customs-Trade Partnership Against Terrorism

 The C-TPAT program comprises the outermost layer of security by imbedding
 security practices in the international supply chain overseas. C-TPAT is a
 voluntary partnership between CBP and private businesses to secure the
 foreign supply chain of goods that are imported into the United States while
 facilitating legitimate trade. Under the program, C-TPAT members agree to
 meet minimum-security criteria. In return, CBP reduces targeting scores for
 importers, decreasing the probability that their containers will be examined
 and thus delayed. All other members such as carriers and brokers receive
 increased market credibility and access. CBP officials said that many large
 importers require carriers and brokers to be C-TPAT certified.

 C-TPAT includes 3,231 importers, 1,655 carriers, 38 terminals, 637 brokers,
 and 400 foreign manufacturers and consignees. “Consolidators,” or
 nonvessel-operating common carriers, are responsible for shipping goods, but
 do not use their own vessels. Instead, they arrange to have goods shipped on
 other companies’ vessels.

 To gain C-TPAT membership, a business must submit, among other
 documents, an action plan to CBP that describes security enhancements that it
 will take to bring it into compliance with C-TPAT’s minimum-security
 criteria. (See C-TPAT Criteria for Sea Carriers, March 1, 2006, available at
 http://www.cbp.gov/linkhandler/cgov/import/commercial_enforcement/ctpat/s
 ecurity_criteria/sea_carrier_criteria/sea_carrier_criteria.ctt/sea_carrier_criteria
 .doc, viewed on January 25, 2007.) CBP reviews the action plan and the
 company’s history. If there is no evidence of prior violations, and if the
 company’s action plan is satisfactory, CBP certifies the applicant. Certified
 members are then validated after CBP conducts site visits to ensure the action
 plan is executed to expectation. C-TPAT has 6,502 certified members, of
 which 3,926 are validated.

 The Container Security Initiative

 CBP’s other layer of security outside the U.S. borders is CSI, which targets
 U.S.-bound cargo for terrorist threats at the foreign ports of lading. CSI has
 three objectives:



A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 6
 •    Identify high-risk containers;
 •    Prescreen containers before they are shipped to reduce disruptions to
      trade; and,
 •    Minimize physical examinations through technological means.

 To achieve these objectives, the United States enters into bilateral agreements
 with foreign governments to host CBP and ICE officials so they may conduct
 targeting operations in the foreign ports. These CSI teams work in partnership
 with their host counterparts and with the National Targeting Center to identify
 containers destined for the United States that pose a risk of terrorism. Once
 CSI identifies a high-risk container, it presents reasons for examining the
 container to the host government. If the host government determines the
 reasons are convincing, it will examine the container. However, the host
 government maintains the right to refuse requests for examination. CSI now
 operates in 50 ports and targets nearly 82% of the containerized shipments
 bound for the United States.

 Targeting and Enforcement Procedures

 CBP’s third layer of security occurs at U.S. ports. CBP and the USCG share
 federal jurisdiction over port security; CBP is the lead agency for cargo, while
 the USCG is the lead agency for vessel, port, crew, and passenger security.
 Specifically, CBP works with the USCG, ICE, local and port authorities, and
 terminal operators to prevent the entry of illegal containers or individuals by
 (1) targeting all cargo and people entering at the port; and (2) conducting
 various enforcement activities, such as examining containers that CBP’s
 targeters identify as suspicious.

 At the ports, CBP officers in the Advanced Targeting Units target all U.S.-
 bound containers and people to determine their level of risk. Officers use the
 Automated Targeting System to assess the risks presented by each shipment
 or person entering the United States. The Automated Targeting System
 analyzes information in cargo manifests, which carriers submit 24 hours
 before the cargo is loaded on the vessel. These manifests may subsequently
 be updated until a day after the cargo arrives. Targeters use a separate
 Automated Targeting System rule-set or filter to target each area of risk, such
 as terrorism, narcotics violations, agricultural threats, and goods violating
 intellectual or property right laws. Applying a rule-set against a container’s
 manifest results in a numerical score indicating the degree of likelihood for
 the threat being assessed. Targeters must review all manifests with the
 terrorism rule-set. Containers with scores exceeding ---- on the terrorism
 rule-set must be examined before leaving the port terminal. Containers with

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 7
 scores between -------------- are subject to further review. At their discretion,
 targeters may use other rule-sets, past experience, intelligence, or other
 research to assess threats and target containers.

 Using the Automatic Targeting System score and the results of any additional
 research, targeters notify the CBP enforcement officers and the terminal
 operator when to examine a container. The CBP enforcement officers work
 with the terminal operators to schedule a convenient time to examine the
 containers. An operator may not release a container from the terminal once it
 has been identified for examination. The CBP enforcement officers usually
 employ a nonintrusive inspection device that captures an image of the
 container’s contents with gamma or x-rays. If the image reveals a suspicious
 object, CBP enforcement officers will open the container and examine it.
 CBP also randomly selects containers for examination.

 CBP officers also conduct other law enforcement activities. They board
 vessels to look for stowaways or contraband, patrol the terminals for
 suspicious activity, and verify that manifests match the containers discharged
 from vessels.

 ICE Investigations

 CBP refers violations of immigration and customs laws, including incidents of
 human smuggling, to ICE for investigation. ICE investigators gather evidence
 to support the prosecution of smuggling ring members by pursuing leads
 generated from interviews, observations, and physical evidence. In addition
 to investigations, ICE is responsible for the custody of detained immigrants
 pending their immigration hearings. ICE’s Office of Detention and Removal
 Operations transports and houses detained immigrants.

 The transnational nature of human smuggling crimes often requires
 investigators to seek assistance from foreign law enforcement counterparts.
 Investigators rely on ICE attachés to facilitate cooperation with foreign
 agencies, including those in mainland China and Hong Kong. Given
 sovereignty concerns, ICE attachés do not conduct investigative work in
 China, and serve only as liaisons to facilitate the exchange of information
 between Chinese officials and ICE investigators.




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 8
Results of Review

     CBP Strengthened the Customs-Trade Partnership Against Terrorism
     Program as a Result of Incidents

                CBP gathered lessons learned from the three incidents and used those lessons
                to make modifications that enhanced the C-TPAT program. After the April
                2005 incident, CBP established requirements that C-TPAT members involved
                in a human smuggling incident must satisfy to maintain their membership,
                including:

                    •    Pay a fine;
                    •    Conduct an assessment of security gaps; and,
                    •    Submit to CBP an action plan for correcting security lapses.

                CBP will revoke the membership of companies that fail to comply.
                Additionally, CBP updated the C-TPAT minimum-security criteria, which in
                turn required C-TPAT members to ensure that their business partners met the
                C-TPAT minimum-security requirements.

                C-TPAT Program Standardized Response to Maritime Human Smuggling
                Incidents

                The January 2005 incident was the first incident to involve a C-TPAT carrier,
                Nippon Yusen Kaisha Shipping Lines, and C-TPAT nonvessel-operating
                common carriers, WiceMarine and P&O Nedlloyd. CBP responded to the
                incident by meeting with representatives from the carrier and nonvessel-
                operating common carriers to discuss the incident and course of action to be
                taken. CBP and Nippon Yusen Kaisha representatives said that the meeting
                resulted in a misunderstanding of the follow-up actions that CBP expected the
                carrier to take. C-TPAT officials said that they requested the carrier to
                produce additional action plans to identify the security gaps and outline any
                corrective actions it planned to take. The carrier’s officials said that they did
                not believe CBP made such requests. As a result, the carrier did not produce
                the action plan that C-TPAT officials expected to receive. However, C-TPAT
                took no action against the carrier for its perceived failure to comply with a C-
                TPAT request until after the April 2005 incident.

                Immediately after the April 2005 incident, in which Nippon Yusen Kaisha
                was also the carrier, Nippon Yusen Kaisha contacted CBP. C-TPAT officials
                determined that they did not communicate requirements clearly to the carrier

               A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                              Smuggling in Maritime Cargo Containers
                                             Page 9
 after the January 2005 incident. They determined that the program needed
 standard procedures for responding to members implicated in human
 smuggling incidents. On April 6, 2005, CBP suspended the carrier from the
 program due to the carrier’s failure to submit an action plan following the first
 smuggling incident. The carrier’s representatives said that losing C-TPAT
 membership would have had a devastating effect on its business had they not
 acted quickly. Soon after learning of the suspension, Nippon Yusen Kaisha
 officials contacted CBP and C-TPAT program managers to schedule a
 meeting. On April 13, 2005, CBP met with the carrier’s chief operating
 officer to discuss the incidents, the carrier’s response, and the suspension.
 CBP agreed to reinstate the carrier if it immediately paid $2000 per alien
 stowaway not detained (as per 8 USC § 1253, 1231) and addressed its supply
 chain vulnerabilities. Specifically, CBP instructed the carrier to:

     •    Inspect their business operations in China for security gaps;
     •    Submit a satisfactory, comprehensive action plan to close gaps in
          security; and,
     •    Schedule quarterly follow-up meetings with CBP to report its progress
          in implementing the action plan.

 Nippon Yusen Kaisha complied with the conditions and improved its security,
 as well as the security of its partners. Carrier officials visited its terminal
 operations at the port of Shekou and 22 other ports where the carrier conducts
 business to determine security gaps. The carrier found security breaches at its
 terminal in Shekou and identified problems at its terminals in other ports. The
 carrier submitted an action plan to CBP summarizing the security gaps and
 how it would resolve them. Although we did not verify their claims, the
 carrier’s officials said that it made the following corrections to improve
 security at its Shekou terminal:

     •    Terminated all of its staff;
     •    Trained its new staff in security measures including detection of
          anomalies such as trap doors and holes in container floors;
     •    Refined its detection systems, including improving its process for
          weighing containers; and,
     •    Installed carbon dioxide detection devices that indicate a likelihood of
          stowaways in containers.

 According to Nippon Yusen Kaisha officials, its Shekou terminal now has
 seven layers of security and all of its personnel are conducting surveillance of
 the containers that are laded there. Every 2 weeks, carrier officials visit the
 ports to ensure adherence to security practices. The carrier is implementing

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 10
 similar security enhancements at all of its terminals. Nippon Yusen Kaisha
 also worked with the Chinese government and business partners to deter
 future smuggling incidents. Carrier officials distributed press releases in
 China to discourage smuggling attempts on carrier vessels, and they met with
 Chinese police and customs officials to discuss smuggling issues and
 prevention. The carrier facilitated meetings with shippers and other trade
 partners to discuss security concerns and ways to overcome them. For
 example, the carrier’s officials suggested that its partners hire truck drivers
 that have been vetted for security concerns.

 Following the April 2006 incident, C-TPAT officials followed the same
 process with China Shipping Container Lines that it used with Nippon Yusen
 Kaisha in the April 2005 incident. China Shipping Container Lines contacted
 CBP immediately after the incident, initiated an internal review of the
 incident, and provided CBP with information related to the shipment. On
 April 7, 2006, CBP’s Assistant Commissioner for Field Operations met with
 the carrier’s president to discuss the facts of the incident and the actions that
 the shipping line would have to take in order to maintain its C-TPAT
 membership.

 Fine proceedings were initiated for failure to detain stowaways. CBP required
 the carrier to pay the stowaway penalty. The carrier was also required to visit
 its terminals in China to determine security vulnerabilities and submit an
 action plan to address any security gaps. Because the carrier responded
 quickly to CBP’s requests, and because the container harboring stowaways in
 April 2006 incident had no trap doors or other visible indicia of stowaways,
 CBP did not suspend the carrier’s membership in the C-TPAT program.

 On April 17, 2006, China Shipping Container Lines submitted an action plan
 but said it was unable to conduct the security reviews at its terminals at that
 time. CBP acknowledged the carrier’s reasons for delaying the site visits, yet
 urged its officials to conduct them as soon as possible. A few months later,
 the carrier conducted a site visit of Shanghai to assess security controls,
 including assurance that each container being laded on its vessels are visually
 inspected for signs of modifications.

 The January 2005 incident led C-TPAT program managers to standardize their
 response to members involved in maritime human smuggling incidents. CBP
 acted decisively and consistently in response to the April 2005 and the April
 2006 incidents. As a result, both carriers’ terminals at Chinese ports are more
 secure. Also, Nippon Yusen Kaisha’s communications with its business


A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 11
             partners and the Chinese government may have generated more interest in
             implementing maritime security measures.

             C-TPAT Program Leveraged C-TPAT Membership to Improve Security

             Partly as a result of the January 2005 incident, CBP issued updated minimum-
             security criteria for C-TPAT members with a new requirement that leveraged
             C-TPAT sea carriers’ membership to improve the security of nonmember
             business partners and customers. CBP required C-TPAT sea carriers to screen
             their business partners who provide transportation services. Similarly, C-
             TPAT sea carriers must screen new customers to determine whether they are a
             legitimate business or otherwise pose a security risk. Sea carriers must also
             ensure that nonvessel-operating common carriers commit to the C-TPAT
             security recommendations. CBP gives C-TPAT members 90 days to comply.

             The minimum-security criteria provide broad security goals, but do not
             prescribe the methods by which C-TPAT members may satisfy the goals. To
             fulfill the new requirement, Nippon Yusen Kaisha created standard language
             for its contracts with business partners requiring the partner to uphold certain
             security standards. To achieve the same goal, China Shipping Container
             Lines required the agents that book space on its vessels to ask a list of
             security-related questions to each entity seeking reservations on the carrier.
             Should an answer reveal a security lapse, the booking agent notifies the
             carrier’s security officer, who decides whether the customers’ security
             measures meet the minimum-security criteria.

             Nippon Yusen Kaisha and China Shipping Container Lines are large
             companies in the container shipping community, and each has specific needs
             that are unique to its operational and management structure. CBP recognized
             that mandating rigid methods for compliance with the criteria would not allow
             C-TPAT members enough flexibility to support their differing business
             models. Accordingly, while the C-TPAT 2006 minimum-security criteria
             require C-TPAT members to ensure the security of their business partners and
             customers, the criteria allow each C-TPAT member to devise its own methods
             for achieving that goal. This approach allowed Nippon Yusen Kaisha and
             China Shipping Container Lines to comply with the requirement in ways that
             were compatible with their own business models.

Incidents Highlighted CSI Program’s Inherent Limitations
             Although the CSI program performed as designed, the incidents highlighted
             the program’s inherent limitations. First, CSI is unable to recommend for

            A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                           Smuggling in Maritime Cargo Containers
                                          Page 12
 examination containers that are laded at non-CSI ports. In the January and
 April 2005 incidents, the containers passed thru Hong Kong, a CSI port, but
 were laded elsewhere. Second, it is difficult for program officials to convince
 the Chinese government to examine containers with intermediate Automated
 Targeting System terrorism rule-set scores and no additional specific indicia
 of threat. The April 2006 incident illustrated that even when containers
 harboring stowaways are laded at CSI ports, the targeting does not always
 provide a threat specific enough to persuade the Chinese government to
 examine the container.

 CSI is working to remedy these problems. When the January incident
 occurred, CSI was negotiating to establish CSI operations at ports in China,
 and is continuing to negotiate expansion to Shekou, the port in Shenzhen
 where the containers in the incidents were laded. However, given that the
 Chinese smuggling rings have changed tactics in the past, it is likely that the
 smugglers will use other ports where CSI does not have a presence for lading
 human cargo. Nonetheless, CBP is currently negotiating with the shipping
 industry to include more information in the 24-hour rule submissions to
 improve its targeting. Some of the additional information might improve the
 ability of CSI to provide specific information to support its recommendations
 for examination.

 CSI Program Is Limited Due to Restricted Number of Ports Served

 CBP never intended for CSI to cover all 704 ports that ship to the United
 States. Instead, CBP prioritized ports based on the volume of exports to the
 United States and the risk presented across multiple dimensions including
 terrorism, drug smuggling, human smuggling and other threats. However, the
 lack of a CSI presence in Shekou and other ports exemplifies the program’s
 limitations as part of the layered maritime security strategy.

 In the 2005 incidents, the containers holding the Chinese nationals were
 loaded onto a vessel in Shekou, China, a non-CSI port. The vessel then sailed
 to the CSI port of Hong Kong where the containers harboring the stowaways
 remained on board. CSI does not target containers that are laded at non-CSI
 ports and then pass through a CSI port without being discharged from the
 vessel. The program only targets containers that are laded in the foreign ports
 at which CSI has a presence. According to CSI officials, removing and
 examining containers laded at non-CSI ports would place a much higher
 burden on carriers and ports than inspecting containers as they are being
 laded. Foreign governments would be less receptive to hosting the CSI
 program if it required containers laded at non-CSI ports be removed and

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 13
 examined. Therefore, the CSI program acted according to its protocols and
 was not directly implicated in the 2005 incidents.

 Before the 2005 incidents, CSI was negotiating with China to expand the CSI
 program to ports in mainland China. The ports of Shanghai and Yantian
 export 1.5 million containers to the United States annually. The other Chinese
 ports, which do not host CSI, export approximately 500,000 containers to the
 United States annually. CSI has been expanding since its inception in January
 2002. As of January 2005, CSI targeted approximately 50% of in-bound
 containers. In 2003, the United States and China signed a Declaration of
 Principles, agreeing to pursue a CSI presence in Chinese ports. However,
 China proceeded slowly in negotiations, requiring precise delineation of CBP
 and ICE roles in the program to alleviate security concerns and sovereignty
 issues. Despite its efforts, CSI still had not established its program at the new
 ports when the 2005 incidents occurred.

 The United States and China finally approved CSI implementation guidelines
 for mainland China on March 28, 2005. CSI established pilot ports in
 Shanghai and in Shenzhen’s port of Yantian in April and June 2005,
 respectively. The efforts to implement these two CSI ports in mainland China
 are not a reaction to the two Chinese human smuggling incidents in 2005, but
 are part of the initial phase of CSI expansion. However, the containers in the
 January and April 2005 incidents were laded in Shekou, where there was no
 CSI presence planned. CSI officials wanted to expand the program to Shekou
 and similar ports in China to reduce the human smuggling and other
 vulnerabilities, but were concerned that aggressively seeking to expand CSI
 would elicit resistance from already cautious Chinese negotiators.

 In December 2005 and January 2006, CSI officials identified a creative
 opportunity for expanding CSI in China. The operational agreement with
 China listed Shenzhen as one of the two new port areas to become a CSI
 program. Shenzhen has customs authority for three physically distinct
 container ports, including Shekou. China and the United States initially
 agreed that the CSI program would target the shipments for only one of the
 Shenzhen ports, the port of Yantian. CSI officials decided to propose a slight
 change to the initial agreement with China. In January 2006, CSI officials
 requested China to expand the CSI team’s effective presence without
 expanding its actual presence. The CSI team would continue operating out of
 Shenzhen, but would target containers laded at all ports within the customs
 authority of Shenzhen. China agreed to the proposal. To accommodate the
 expanded examinations, China improved infrastructure and officer training in


A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 14
 the ports of Shekou and Chiwan. The expansion of CSI in Shenzhen
 continues to develop.




 CSI continues to expand, both generally and in response to obvious
 vulnerabilities identified in the 2005 incidents. Expanding CSI’s presence
 might decrease the number of containers with human stowaways laded in
 those ports. While the ports of Shanghai and Yantian export 1.5 million
 containers to the United States annually, approximately 500,000 containers
 arrive from Chinese ports without a CSI presence. To some extent, these
 containers come from lower-risk ports, as CSI officials established the
 program in the ports with higher levels of risk. However, the recent history of
 Chinese human smuggling suggests that smugglers are adaptive and change
 ports of lading for stowaways in containers. Ports lacking a CSI presence
 remain vulnerable.


A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 15
 CSI officials reacted appropriately to the 2005 incidents. They identified the
 obvious threat of the port of Shekou and developed a creative solution without
 disrupting their phased expansion. CSI’s expansion to high-risk ports will
 decrease the number of ports vulnerable to human smuggling and other
 immigration and customs violations.

 Targeting Limits CSI

 The April 2006 incident highlighted another vulnerability in the CSI
 program—container targeting is limited in its ability to ascribe specific risk
 factors to suspect containers, which reduces the likelihood that a host
 government will examine a container. The container that harbored Chinese
 stowaways in the April 2006 incident was laded at Shanghai, a CSI port. The
 CSI targeting team had identified the container as an intermediate risk using
 the Automatic Targeting System terrorism rule-set, but additional review did
 not find any specific information indicating a risk of terrorism. Without more
 specific information of risk, CSI’s targeters could not justify requesting China
 to examine the container. The Chinese government requires more specific
 information relating to terrorism threats other than intermediate scores on the
 Automatic Targeting System terrorism rule-set. To justify a request to
 examine a container, CSI needs targeting information that specifically
 identifies containers that are a high risk to national security.

 CBP officials said that targeting with the Automatic Targeting System
 terrorism rule-set is rarely able to determine the specific nature of the threat,
 just that there is one. The Automatic Targeting System terrorism rule-set
 identifies factors that could be indicative of a national security threat, but the
 number and nature of the data elements it reviews limit the Automatic
 Targeting System. Although many containers fall within the terrorism rule-
 set’s range for further review, it is unlikely that targeters will detect specific
 information identifying the nature of the threat through subsequent research.
 If no specific information is available to link specific risk factors to a
 container, the targeting information alone may not be sufficient to support a
 request for inspection. While CSI officials said that Chinese officials would
 review containers presenting a risk for stowaways, China is also more likely
 to reject inspections if the evidence suggesting a threat is not specific, as
 evidenced by their denial of 19% of all examinations requested by CSI, while
 all other ports denied less than 1% of requests. The container in this incident
 could not be tied to sufficient evidence to indicate any specific threat.
 Lacking adequate specificity, CSI’s targeters referred the container to
 domestic targeters for additional review and possible inspection.


A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 16
             Following the April 2006 incident, CSI program officials reviewed CSI
             actions and determined that all CSI procedures were followed appropriately.
             We agree with their assessment. Due to the limited data elements available
             for targeting and the voluntary nature of the program, it is unclear what
             additional steps CSI could have taken to influence Chinese officials to
             examine the container. However, we are concerned that future containers
             with stowaways will not be examined.

             CBP is aware of its targeting system’s limitations and is pursuing
             improvements. For example, CBP is negotiating with the shipping industry to
             require additional data elements in the 24-hour rule submissions in an
             initiative called “Ten Plus Two.” Some of the data sought includes -----------
             ------- -- - ------------------------------- ----- --------- - ---- - ---------------- - ---- ---
             ------------------------------- . CBP determined that ------- ---------------------------
             ----------------------------------------------- -- ---------- - ------------------------- -----
             ----------------------------- . In addition, historical analyses showed that
             containers with stowaways -------------------------------------------------- ,
             -------- --------------------------------------------------------- - ------- These
             additional data elements might improve CBP’s capability to identify risk in
             containers more accurately and to articulate those risk factors to host
             governments. The SAFE Port Act (Public Law No. 109-347) requires CBP to
             seek additional data elements to improve targeting. CBP should continue to
             advocate for these data elements in its ongoing negotiations with the shipping
             industry.

CBP Modified Targeting Activities
             Using the lessons learned from the incidents, CBP ports revised targeting
             procedures to improve the likelihood of identifying containers harboring
             Chinese stowaways. In addition, CBP headquarters took actions to change
             targeting procedures at the ports. CBP did not alter targeting practices after
             the January 2005 incident, but altered its targeting procedures, both nationally
             and at the ports, after the April 2005 and April 2006 incidents. National
             changes included the creation of automated targeting system filters for
             detecting Chinese human smuggling in maritime cargo containers. CBP
             Seattle/Tacoma targeters decreased the automated targeting system mandatory
             examination score to increase the number of containers it examined, and CBP
             Los Angeles/Long Beach increased its targeting staffing in order to provide
             the resources necessary to conduct a more thorough analysis of each
             container. In addition, the CBP port staff there developed a new targeting
             approach that focused on the entire vessel and not just the individual


            A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                           Smuggling in Maritime Cargo Containers
                                          Page 17
 containers that are discharged. The vessel targeting is used to develop a more
 comprehensive enforcement plan for each day’s activities.

 CBP’s Response to the January 2005 Incident

 Although CBP documented lessons learned from the January 2005 incident, it
 appears that CBP Los Angeles/Long Beach did not change its targeting
 practices after the January 2005 incident. CBP does not have documentation,
 and the officials we interviewed do not recall whether the targeting changes
 were made in response to the January 15, 2005, incident. Some CBP Los
 Angeles/Long Beach officers recalled that after one of the incidents, the
 targeters “scrubbed” the container manifests, reviewing them more often with
 particular attention to indications of human smuggling. However, we cannot
 confirm whether this change was made subsequent to the January 2005
 incident.

 CBP’s Response to the April 2005 Incident

 In response to the April 2005 incident, CBP Los Angeles/Long Beach’s
 targeters developed an automated targeting system filter to identify containers
 that held a high risk of harboring Chinese stowaways. The filter relied on
 commonalities that CBP identified and documented from the January and
 April 2005 incidents. In addition to the rule-sets, targeting officers may
 develop queries or filters to identify containers that match certain port-specific
 indicators. Officers can implement them quickly because they do not have to
 undergo CBP’s formal approval process. The filter created by CBP Los
 Angeles/Long Beach’s targeters identified containers that were laded or
 received in the ports in and near Shekou, China, the port at which the
 containers harboring stowaways in both incidents were laded.

 CBP Los Angeles/Long Beach also implemented recommendations by a team
 assigned by CBP headquarters to review its operations after the April 2005
 incident. The review team recommended changes to the Automated Targeting
 Unit, including increasing the unit’s staff to accomplish the additional
 research necessary on importers, consignees, and other aspects of container
 shipments. Among other changes, the review team also recommended that the
 port provide supervisory staff on all shifts. CBP Los Angeles/Long Beach
 increased the size of its targeting staff. CBP’s staff said that there are
 supervisors working on every shift.

 In addition, CBP Los Angeles/Long Beach port personnel instituted a new
 targeting approach. The impetus for this change was an April 28, 2005, CBP

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 18
 headquarters memorandum instructing the ports to increase security measures
 due in part to the 2005 incidents. In addition to targeting maritime containers,
 crew, and passengers, the Los Angeles/Long Beach targeters created the
 Integrated Threat Analysis Group, which began targeting entire vessels by
 determining the risk presented in five areas: vessel type and history; ports of
 call; cargo; crew; and passengers. Each of the five areas is assessed for risks
 related to terrorism, narcotics smuggling, stowaways, deserters and
 absconders, agricultural or bio-terrorism, trade fraud, and illegal exports. Two
 other CBP ports, Baltimore and Philadelphia, subsequently instituted this
 approach.

 CBP Seattle/Tacoma responded to the April 2005 CBP memorandum to
 increase port security by reducing the Automated Targeting System’s
 terrorism threshold score for mandatory examinations from ------------ . As a
 result, the container harboring Chinese stowaways in April 2006 was held for
 a mandatory examination due to its score -------- Had Seattle maintained the
 original threshold score ------- , it is possible that the container would not have
 been subjected to additional review and held for examination. CBP
 Seattle/Tacoma’s targeters have maintained the - --- score as the threshold for
 mandatory examinations.

 In addition, CBP conducted a special operation, No. 2005-03, from May 5,
 2005, through May 27, 2005, in its West Coast field offices. The operation
 required ports to target containers with traits similar to the containers in the
 January and April 2005 incidents. Containers with the following
 characteristics were targeted:

     •    ------------------------------
     •    ------------------- - ---------------------------- ------------------------
     •    -------------------------- ---------------

 The operation required that CBP examine all containers meeting these criteria.
 The operation ended because CBP analyzed incidents of Chinese stowaways
 in maritime cargo containers and determined that --- -------------------------------
 --------------------------------------- ----------- ---------------- - ---- ------ - ------------
 --------------- - ------- ---- --------

 CBP’s Response to the April 2006 Incident

 In response to the April 2006 incident, CBP Seattle/Tacoma port staff created
 new Automated Targeting System filters for detecting Chinese stowaways in
 maritime cargo containers. CBP Seattle port personnel developed a filter

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 19
 similar to that created by Los Angeles/Long Beach that relied on
 commonalities between the three incidents. Within a few days of Seattle’s
 creation of a filter, CBP headquarters required all ports to use two new
 Chinese human smuggling filters that headquarters had developed in
 conjunction with CBP Los Angeles/Long Beach targeting staff. The filters
 added to the criteria the port of Shanghai as the port of lading and receipt.
 Shanghai was the port of lading for the stowaways in the Seattle incident.

 CBP headquarters issued standard operating procedures requiring targeters to
 conduct additional research on containers identified by the filters. The factors
 to be researched were commonalities that CBP had identified through its
 analysis of the incidents of Chinese stowaways in maritime cargo containers.
 When the filters identified a container, targeters were to research certain
 factors not captured by the Automated Targeting System.

     •    ---------------------------------
     •    -------------- ------------ ----------- --------------------- ----------------
          ------- ------ ----- -- -
     •    --------------- - -------------------------------
     •    ------- - ---------------------------
     •    --------------------------------- -- - ---------------------------
     •    -------------------------------------------- -------------- ---- -------- --------

 The standard operating procedures required CBP’s targeters to place a hold
 for examination on the containers that matched the factors or otherwise had
 indicia of human smuggling.

 CBP’s Current Efforts to Improve Targeting to Detect Chinese Stowaways

 CBP is undertaking other improvements to detect Chinese stowaways in
 maritime cargo containers. At the conclusion of our fieldwork, CBP officials
 were negotiating with the shipping industry to expand the data provided in the
 24-hour rule submission. Among the additional data elements that CBP seeks
 are --------------------------- ------------- ---- - --------------------------------------
 ---------------------------------------------- ---------------------------------- . Having
 this information 24 hours prior to shipment would give CBP’s targeters more
 time to determine ---------------------- - ---------------------- ---- Knowing where
 containers were loaded would allow CBP to determine whether the loading
 point was near to those used in the past to load Chinese stowaways. However,
 historical analysis indicates that the smugglers change location. For years
 they loaded containers in Hong Kong, then in Busan, then in Shenzhen, and in
 April 2006, in Shanghai. The point of loading may be useful, but the

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 20
             smugglers could begin to use new points of loading more frequently, which
             might make the information less useful.

             CBP is also negotiating to obtain ------- ----------------------------- - -----------
             -------- - ------------------ -------------- --- ----------------------------------------------
             --------------- ----------- --- ----------------------------------------- - ---------------------
             ------------------------------------------- ------------- ------------------------------------
             ----------------------------------------------- --------------- ------------------------ -
             -------------- ------------------------------ ------------------------

             Although CBP did not appear to have altered its targeting practices in
             response to the January 2005 incident, CBP ports made significant
             improvements to their targeting efforts in response to the April 2005 and April
             2006 incidents. Increasing the number of targeters and supervision at Los
             Angeles/Long Beach allows targeters more time to research important data
             points for targeting purposes. Moreover, although the new Integrated Threat
             Analysis Group reports are not directed solely to targeting for Chinese
             stowaways, they provide CBP with a more comprehensive view of an
             incoming vessel to plan appropriate enforcement action. CBP
             Seattle/Tacoma’s decision to decrease the mandatory examination threshold
             score will improve the likelihood of apprehending stowaways and other
             threats to national security.

             Likewise, CBP headquarters helped improve targeting capability, and it
             continues to enhance targeting by expanding the data required by the 24-hour
             rule. CBP’s development of a human smuggling filter for the Automated
             Targeting System represents an advance in targeting for Chinese stowaways in
             maritime cargo containers. The filters, in conjunction with the required
             research of commonalities, capture many of the factors shared by the 2005
             and 2006 incidents.

CBP Modified Its Enforcement Activities
             Using the lessons it learned from the incidents, CBP also modified its
             enforcement efforts. CBP Los Angeles/Long Beach instituted a permanent
             change, using the Integrated Threat Analysis Group’s vessel targeting reports
             to direct and align enforcement activities between CBP enforcement teams
             and the USCG. CBP also increased patrols and vessel boardings and
             implemented more rapid examinations of containers targeted by the new
             Automated Targeting System filters for Chinese stowaways. CBP
             headquarters mandated these changes during brief special operations. CBP


            A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                           Smuggling in Maritime Cargo Containers
                                          Page 21
 ports have re-instated some of the enforcement activities for the current
 season of Chinese human smuggling.

 CBP’s Response to the January and April 2005 Incidents

 As with the targeting procedures, it appears that CBP did not make changes to
 its enforcement efforts after the January 2005 incident. However, it did do so
 after the April 2005 incident. On April 28, 2005, CBP headquarters issued a
 memorandum requiring local enforcement teams to increase enforcement
 activities. In addition, the May 5, 2005, special operation affected targeting
 and special enforcement actions by CBP officers some of the large Pacific
 coast ports.

 The most significant change CBP made in response to the memorandum and
 the May special operation was to examine more quickly those containers
 identified by the Automated Targeting System terrorism rule-set. In one of its
 incident reports, CBP noted the following as a potential improvement to
 enforcement team practices:


    Ports should examine more expeditiously containers that are held
    for examination due to their scores on the terrorism rule-set. The
    shorter the delay between discharge and examination, the smaller
    the opportunity for the stowaways to escape.


 Prior to the May 2005 special operation, CBP did not specify when ports
 should examine containers, and ports scheduled examinations at times that
 were convenient to them and their terminal operators. The May special
 operation required CBP enforcement teams to board vessels and examine all
 containers that met the operation’s targeting criteria. When the targeted
 containers could not be examined on board the vessel, CBP required that
 enforcement teams examine containers immediately upon discharge. In
 addition, after the special operation concluded, CBP Los Angeles/Long Beach
 created, trained, and equipped a special enforcement stowaway team to
 examine containers targeted by its Automated Targeting System filters for
 Chinese stowaways within 6 hours of discharge. That team was operational
 during the following Chinese stowaway season in October 2005 through May
 2006, and did not discover any stowaways.

 CBP Los Angeles/Long Beach also instituted daily review of Integrated
 Threat Analysis Group reports by its chiefs and members of the USCG. The

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 22
 meeting participants reviewed the threat level assessment for each vessel to
 determine how to focus and coordinate enforcement activities to address each
 potential threat. For vessels with a high risk of Chinese stowaways, the inter-
 agency vessel boarding team might decide to question the vessel’s crew about
 unusual noises or smells emanating from containers. The vessel boarding
 team might attempt to observe containers targeted for Chinese stowaways
 before the containers are discharged from the vessel, look for trap doors or
 out-of-place trash, sniff for unusual smells, or listen for noises. Other
 enforcement measures might be implemented, as well, depending on the level
 of the threat. Reviewing the Integrated Threat Analysis Group reports
 increases the likelihood of detecting Chinese stowaways and the effectiveness
 and efficiency of CBP enforcement activities.

 CBP port officials said that they were able to respond to the 2005 incidents
 quickly only because CBP officers happened to be working late on the nights
 the incidents occurred. To ensure a rapid response to future incidents of
 Chinese human smuggling or other threats, those CBP staff said the port
 should have a continuous watch command. However, at the time of our
 fieldwork, CBP management at the port did not have the resources to operate
 a continuous watch command.

 CBP’s Response to the April 2006 Incident

 CBP headquarters issued a special operation directive to all ports on April 7,
 2006, in response to the April incident. CBP required that for all China
 Shipping Container Lines vessels, CBP enforcement teams had to board the
 vessels immediately, search the vessel for any signs of stowaway activity,
 monitor the vessel from the time of arrival to departure, and ensure that the
 containers discharged matched their manifest information. Teams were to
 examine targeted containers as soon as they were discharged from China
 Shipping Container Lines vessels, to the extent possible. For containers on
 other vessels arriving from certain Chinese ports and targeted by CBP
 headquarters’ new Automated Targeting System filters, CBP enforcement
 teams were expected to conduct the examination as soon as possible after the
 containers were discharged. In addition, enforcement teams were asked to
 maintain increased security patrols. CBP Seattle/Tacoma port staff arranged
 rapid examinations of targeted containers with the terminal operators. CBP
 Los Angeles/Long Beach continued the special stowaway enforcement team
 that it assembled after the April 2005 incident.

 Using the lessons learned from the three incidents, CBP enhanced its
 enforcement operations to identify and apprehend Chinese stowaways in

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 23
            maritime cargo containers. Some of the modifications also improved CBP’s
            ability to identify and apprehend other violators. CBP should continue to
            examine, as quickly as possible, all containers held for examination due to
            Automated Targeting System terrorism rule-set scores. Quick responses to
            those containers might prevent or mitigate a serious incident. Likewise, the
            daily Integrated Threat Analysis Group report is a good tool for coordinating a
            comprehensive response to all threats. Officials in CBP headquarters are
            assessing the feasibility of expanding the Integrated Threat Analysis Group
            program to all CBP seaports. Finally, increasing patrols also improves not
            only the ability to apprehend stowaways, but also other violators.

CBP Ports of Los Angeles/Long Beach and Seattle/Tacoma Prepared for
New Smuggling Season
            CBP’s historical analyses indicated: (1) that the ports of Los Angeles/Long
            Beach and Seattle are the ports prone to Chinese stowaways in maritime
            containers; and (2) the incidents ----- ----------- -- - -------------------
            presumably ------------------------- -- - ----- -------------------- --------- - ---------
            ------------- Since 1999, all of the containers harboring Chinese stowaways
            were destined for one of the two ports ------------------------ . Relying on
            CBP’s historical analyses, the CBP ports of Los Angeles/Long Beach and
            Seattle/Tacoma increased targeting and enforcement efforts ---------------------
            ------ -- --------------------------- .

            CBP Los Angeles/Long Beach’s targeters are using the automated targeting
            system stowaway filters and Integrated Threat Analysis Group reports to
            identify vessels with a higher probability of harboring containers with Chinese
            stowaways. The enforcement teams are conducting patrols and surveillance
            activities to apprehend stowaways and other miscreants, -------------------------
            ---------------------- ------- Because earlier incidents at Los Angeles/Long
            Beach ----- ------- -------------------------- --------------------------------------- -
            --------------- - ----------- - ------ - -- - -- ------------- ------------------ --
            ------ -- - ------------

            CBP Seattle/Tacoma’s targeters are using the human smuggling filters and
            research procedures to detect containers with a high risk of harboring Chinese
            stowaways. The boarding teams now operate 24 hours a day, 7 days a week.
            They have begun boarding high-risk vessels with the intent to detect Chinese
            stowaways. As funds become available, CBP Seattle/Tacoma enforcement
            units will conduct other activities.



           A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                          Smuggling in Maritime Cargo Containers
                                         Page 24
           The CBP Los Angeles/Long Beach and Seattle/Tacoma increase in targeting
           and enforcement activities are appropriate and reflect the lessons learned from
           the three incidents. However, given that Chinese smuggling tactics have
           changed in the past, it is likely they will change again in the future. CBP
           Pacific coast ports need to alert their staff and industry partners to the
           heightened risk of Chinese human smuggling ----- --------------------------- and
           train staff to be vigilant for potential stowaways.

           We recommend that the CBP Commissioner:

           Recommendation #1: Distribute summaries of the commonalities shared by
           past incidents of Chinese human smuggling in containers to Pacific coast port
           personnel with an instruction to be alert to the possibility of incidents
           occurring in their ports. While increased targeting and enforcement activities
           are not yet called for at these ports, CBP personnel should be vigilant for
           Chinese stowaways in containers.

           Recommendation #2: Direct Pacific coast port personnel to inform its
           partners, such as terminal operators and local law enforcement, of the
           potential for Chinese human smuggling in cargo containers and indicia of
           such smuggling. Encourage local partners to contact CBP if they encounter
           suspicious parties at the ports.

ICE Improved Coordination of Investigations With the Chinese
Government, but Coordination With CBP Should Be Improved

           ICE’s investigations demonstrated the need to coordinate better with Chinese
           and CBP counterparts to conduct a successful investigation. Exchanging
           information with the Chinese government benefits both countries’ respective
           investigations. However, achieving an open and equitable exchange has been
           difficult and has required ICE officials to continue to develop their negotiating
           skills as they conduct their investigations. ICE officials were concerned that
           not being present at the initial stages of an apprehension of stowaways might
           hinder their investigations as well. While ICE has initiated some measures to
           improve response coordination with CBP, both components can do more to
           ensure that ICE has appropriate opportunities to advance its investigations.

           ICE Faces Significant Issues When Dealing With Chinese Investigative
           Counterparts

           ICE learned from its investigations of the 2005 smuggling incidents that
           obtaining assistance from Chinese government officials is difficult. ICE

          A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                         Smuggling in Maritime Cargo Containers
                                        Page 25
 submitted all of its information to its Chinese counterparts, but received little
 in return. ----------------------------------------- -----------------------------------
 ------------------------------- In 2006, ICE revised its strategy for obtaining
 assistance from China. It meted out information, providing the Chinese
 officials one piece of information and insisting on receiving information in
 return before sharing another piece of information. That strategy was more
 successful; ICE obtained useful information from the Chinese government
 officials to advance its investigation, which is ongoing.

 ------- --------------------------------- ---------------- --------------------------
 ---------------------------------------------- -------- ---------------------------------------
 ------------------------------------------------ ------------------------- -------------- ---
 -------------------------------------------- -------------- ---- ---------- ------------
 ---------------- ------ ----- --------- -------------------------------- - - ----------
 -------- ---------------------------------- ----------------------------------- ---------------
 ------------------------------- ---------- ----------------------------------------------------
 ------------------------------------------- -------------------------------------- ---------
 ----------- ----------------- ----- - ----- ---------------------- -- --------------------- --
 -------- -------------- ----- ------- ---- -------- - ------- ------------- - -------
 -------------------------------- ----------------- ----------------- - -- - - ------------------
 ---------------------- -------

 ICE has no investigative authority in China and must seek assistance from its
 Chinese counterparts. ICE investigators communicate their investigative
 needs to the ICE attaché in Beijing, China, who coordinates with Chinese
 government officials. China has allowed ICE investigators access to officials
 in its Entry and Exit office, which oversees customs issues. However, ICE
 believes that the Entry and Exit office is not the appropriate counterpart, as it
 lacks true investigative capabilities. Given that China has made officials from
 this office available, ICE has continued to cooperate with them. According to
 ICE officials and staff, Chinese government officials do not distinguish ICE
 investigators from FBI, CIA, and other agencies. This has become a
 hindrance to obtaining investigative information from China because the
 Chinese government does not cooperate willingly with the other U.S. law
 enforcement and intelligence agencies. Moreover, ICE officials and
 investigators said that the Chinese government does not appreciate the U.S.
 asylum process and is less likely to cooperate with U.S. investigative requests
 when the smuggled Chinese nationals are granted asylum in the United States.

 The investigations concluded that the smuggling operations for each of the
 three incidents were located in mainland China. While investigating the
 January and April 2005 incidents, ICE investigators forwarded information

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 26
 requests through the ICE attachés to the Chinese government. The Chinese
 government did not respond. In June 2005, ICE investigators organized a
 meeting with a Chinese delegation representing the Entry and Exit office to
 exchange information related to the 2005 smuggling cases. The investigators
 described the meetings as difficult and unproductive. ------------------- ------
 --------------------------------------------------------------- - -----------------------
 ---- -------- -- ------------------------ - --- -------------- - ------ ------------- ------
 -------- ----- - - ---- --------------------- - -----------------------------------------------
 ---------------------------------------

 ----------------------------- -------------------------------- ------------------------------
 -------------------------------------------- ----------------- ---------------------------
 --------------------------- --------------- ---------------------------------------------------
 ------------------------------------------------- ---------------------- ----------------------
 ----- - ------------------------------------- ----------------------------------------------
 ----------------------------- -------- -----------------------------------------
 ------------------------------- ----- ------------------- ----------- - ----------------------
 ----------------------------- ------------- - -------------------------- --------
 ---------------------------------- -------------------------------------- -------------------
 ------------------------ ------- ----------------------------

 With photographs of the suspected smugglers and knowledge of the staging
 areas, ICE was able to question the smuggled Chinese nationals more
 effectively and obtain new and useful information. Some of the smuggled
 Chinese nationals confirmed that the photographs were of the smugglers and
 of the loading areas. The investigation is still open and has made more
 progress than the 2005 investigation due to China’s willingness to share
 information.

 To formalize the information exchange process, ICE successfully negotiated a
 Memorandum of Understanding (MOU) with the China’s Ministry of Public
 Security and International Cooperation Department. The MOU was signed in
 July 2006. It is too early to be certain, but the MOU should provide some
 clarity to the collaborative process.

 The Lack of Formal Coordination Between ICE and CBP Might Have
 Hindered ICE’s Investigation

 CBP and ICE do not have formal protocols for notifying each other when a
 smuggling incident occurs. Specifically, neither CBP Los Angeles/Long
 Beach’s nor CBP Seattle/Tacoma’s standard operating procedures for
 stowaways discuss ICE’s role or requirements for investigating incidents. The

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 27
 Seattle/Tacoma document requires the port director to ensure that enforcement
 actions are coordinated with ICE, USCG, and other law enforcement entities,
 but it does not provide any details about how CBP should coordinate with
 ICE. As a result, all appropriate parties may not be present when a container
 suspected of human smuggling is opened, and the crime scene could be
 compromised. In the January 2005 incident, this procedural void resulted in
 delayed notification to ICE. While there is no way to know whether ICE
 would have gained substantiating evidence from being present at the opening,
 the failure to include ICE denied it that opportunity, which could have
 resulted in a stronger investigative case.

 It is critical that federal and local law enforcement agencies coordinate their
 immediate responses to incidents of Chinese stowaways in maritime
 containers because valuable information is very difficult to obtain during an
 investigation. ICE agents have emphasized the importance of timely
 notification, citing a successful smuggling investigation that resulted in a
 conviction in 2004. The success of that investigation was directly related to
 investigators being present when the container harboring Chinese stowaways
 was opened.

 In the January 2005 incident, CBP did not notify ICE until approximately 2
 hours after it notified USCG and others of the incident. Investigators from
 ICE’s port security and the human trafficking groups responded immediately.
 Upon arriving at the scene, they discovered that CBP officers and USCG sea
 marshals had already opened the second container, found stowaways inside,
 detained them, conducted cursory examinations of the container, and moved
 the containers. CBP officers were already interviewing the stowaways. CBP
 provided ICE with information from the interviews and a cellular telephone
 retrieved from one of the containers.

 ----------------------------------------------------------------------------------------
 -------------------- ------------------------- ----------------------------------------------
 ----------------------- - ------------------------- --------------------------------------------
 ------------------------------------------- ------------------------------------ ---------
 ----------- -------------------- ------------- -- ----------------------------------------
 ------------------------------------------------- -------------------------------- - ----
 ------------------------------------------------ ----- -------------------------- - -----------
 ------------------------------- --------------------------------------------------------------
 ------------------------------------------- -- ---------------------------------------
 ----------------------------------------- --------------------------------------



A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 28
 ICE agents said that shortly after the January incident, they met with CBP,
 USCG, and other law enforcement entities to discuss lessons learned and
 proper crime scene handling to preserve evidentiary integrity. The discussion
 and any agreements that resulted from the meeting were not documented.

 ICE made another attempt to formalize the response to incidents in June 2006,
 a few days before our interview with ICE’s Los Angeles/Long Beach
 investigators. The group supervisor for the January and April 2005
 investigations sent a letter to CBP and USCG to communicate the importance
 of an organized response and to seek resolution of the competing priorities.
 We later asked a Los Angeles/Long Beach CBP official about ICE’s request.
 The official acknowledged that there were discussions about preserving the
 crime scene, but CBP was not aware of any discussions about notifying and
 waiting for ICE before opening a container. The June 2006 letter did not
 resolve the problems that arose in the January 2005 incident.

 ICE employees expressed to us their interest in seeing USCG, CBP, and ICE
 create a human smuggling task force to respond to maritime human smuggling
 events. ICE envisioned task force members would coordinate their activities
 for the advantage of each of their agencies. At a minimum, the agencies
 would determine each other’s priorities and response requirements, and
 establish procedures by which each agency would be alerted to and afforded a
 full opportunity to respond effectively to human smuggling incidents. Those
 procedures would be clearly delineated in an interagency agreement. With
 clear procedures in place, ICE would be afforded the investigative
 opportunities it needs to successfully investigate human smuggling incidents.
 The components have not created this task force.

 We recommend that the Assistant Secretary for ICE and the Commissioner for
 CBP:

 Recommendation #3: Establish formal protocols to guide the department’s
 response to maritime human smuggling incidents. Determine organizational
 roles and responsibilities, especially with regard to:

     •    Parties who must respond to human smuggling incidents and be
          present when opening containers suspected of holding human
          stowaways;
     •    A notification system and timeline for contacting those parties; and
     •    Actions to be taken to preserve the crime scene and other interests.



A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 29
Management Comments and OIG Analysis

             CBP and ICE provided a combined response to our report, which contained
             both technical and formal comments. We evaluated their response and made
             changes to the report where we deemed appropriate. We modified the report
             to incorporate updated data and phrasing regarding the CSI and C-TPAT
             programs that CBP suggested in its portion of the technical comments to the
             draft. We did not modify the wording of one paragraph as ICE requested
             because the draft’s language is sufficiently clear.

             The components identified both “Law Enforcement Sensitive” and “For
             Official Use Only” information that would be inappropriate to publish to the
             public. Many of the items identified directly answer the Congressional
             request to report what CBP and ICE had learned from the incidents and what
             changes they had made to improve operations as a result. Accordingly, we are
             providing the report in full to Congress, but are issuing a redacted version for
             public distribution.

             Below is a summary of the components’ response to each recommendation
             and our analysis. Appendix B contains a complete copy of the components’
             combined response.

             Recommendation #1 (Directed to CBP): Distribute summaries of the
             commonalities shared by past incidents of Chinese human smuggling in
             containers to Pacific coast port personnel with an instruction to be alert to the
             possibility of incidents occurring in their ports. While increased targeting and
             enforcement activities are not yet called for at these ports, CBP personnel
             should be vigilant for Chinese stowaways in containers.

             CBP Response

             CBP concurs with the recommendation and suggests that activities it has
             undertaken have already satisfied the recommendation. CBP has:

             1. Created a centralized office to coordinate responses to containers
                suspected of harboring stowaways;
             2. Conducted a comprehensive analysis of the incidents and referred the
                commonalities to the affected ports;
             3. Appointed a CBP headquarters representative to ensure that potential
                human smuggling incidents are identified, targeted, and communicated
                appropriately;


            A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                           Smuggling in Maritime Cargo Containers
                                          Page 30
 4. Developed a reporting system for suspected human smuggling cases to
    capture key information;
 5. Established regular calls to the West Coast ports to discuss strategy, latest
    intelligence, and use of the human smuggling filters and rule sets in ATS;
 6. Issued a memorandum to remind the ports of the commonalities found
    between incidents of human stowaways in maritime cargo containers.

 OIG Analysis

 Of the activities listed, two may be responsive to our recommendation. Item 5
 may have served as a reminder of the commonalities and the need to be
 vigilant. However, CBP did not provide sufficient detail to confirm that the
 telephone calls relayed the required information. CBP provided us with a
 copy of the memorandum mentioned in item 6. The memorandum did not
 mention the commonalities that we requested for dissemination.

 Items 1, 2, 3, and 4 are not pertinent to the recommendation, although the
 actions they describe may be useful for coordinating CBP activities with
 regard to human smuggling incidents. The information CBP provided did not
 explain how the actions described in items 1, 3, and 4, address our first
 recommendation. With regard to item 2, the commonalities uncovered by the
 comprehensive analysis were distributed approximately a year ago. The goal
 of our recommendation is to provide a reminder to the Pacific port personnel
 of the commonalities and of the need for continued vigilance.

 Accordingly, this recommendation is resolved, but open. To close the
 recommendation, CBP should provide us with documentation of the actions
 taken to remind the Pacific port personnel of the commonalities noted from
 CBP’s earlier comprehensive review.

  Recommendation #2 (Directed to CBP): Direct Pacific coast port
 personnel to inform its partners, such as terminal operators and local law
 enforcement, of the potential for Chinese human smuggling in cargo
 containers and indicia of such smuggling. Encourage local partners to contact
 CBP if they encounter suspicious parties at the ports.

 CBP Response

 CBP concurred with the recommendation and reported it has taken actions to
 close it. CBP instructed its Directors of Field Operations to remind interested
 parties, including terminal operators, of the indicia of maritime human


A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 31
 smuggling and of their responsibility to contact CBP when stowaways or
 indicia of stowaways are found onboard a vessel or in a container.

 OIG Analysis

 We agree that CBP has fulfilled this recommendation, and consider the
 recommendation closed.

 Recommendation #3 (Directed to CBP and ICE): Establish formal
 protocols to guide the department’s response to maritime human smuggling
 incidents. Determine organizational roles and responsibilities, especially with
 regard to:

     •    Parties who must respond to human smuggling incidents and be
          present when opening containers suspected of holding human
          stowaways;
     •    A notification system and timeline for contacting those parties; and
     •    Actions to be taken to preserve the crime scene and other interests.

 CBP and ICE Response

 CBP and ICE responded to this recommendation, which was addressed to both
 components. The two components concur with the recommendation and
 report that their actions have fulfilled it. Their response referred to a
 December 8, 2005 MOU between them, which defines the roles of CBP and
 ICE at the ports of entry. The MOU provides that CBP will refer all complex
 criminal violations to ICE, such as those that involve foreign leads and co-
 conspirators. Maritime container stowaway incidents fall within the definition
 of complex criminal investigations. Accordingly, the MOU established that
 ICE will be asked to respond to maritime container stowaway cases, such as
 those examined in this report.

 CBP and ICE determined that ICE was not required to be present at the
 opening of a container suspected of harboring stowaways. Both agreed that
 opening a container immediately to preserve the health and safety of
 stowaways was more important than delaying to allow ICE time to respond to
 the scene.

 Additionally, both components’ responded that the existing system to notify
 ICE of potential complex criminal investigations, the National Law
 Enforcement Communications Center, satisfies the notification and crime
 scene preservation aspects of the recommendation. CBP officers must use the

A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 32
 system to notify ICE immediately when they uncover a potentially complex
 criminal case, such as those involving stowaways in maritime containers.
 Moreover, the response concludes that immediate notification to ICE will be
 adequate for crime scene preservation.

 Finally, CBP and ICE refer to a working group to coordinate their activities
 and the Maritime Operations Threat Response protocols, which are designed
 to “ensure a seamless coordination effort to address maritime threats.”

 OIG Analysis

 We agree that CBP and ICE have satisfied the recommendation, and consider
 the recommendation closed. We did not receive, but should have been
 provided, the December 8, 2005 MOU during fieldwork in response to our
 request for: “Any SOPs, procedures, policies, or other documents defining the
 roles of CBP, ICE, and USCG in responding to aliens smuggled into U.S.
 ports.” When asked, no CBP or ICE personnel at the ports named the MOU
 or the communication system as guidance for responding to incidents of
 stowaways in cargo containers. Nonetheless, CBP and ICE have provided
 documentation subsequently that defines their roles in responding to cases of
 maritime container stowaways and have established expectations that CBP
 will immediately notify ICE through an existing 24-hour system as soon as
 such cases are discovered so that the crime scene may be preserved. We
 remain concerned that port personnel may not be aware of the MOU and the
 procedures CBP described in its response, as the 2006 incident was not
 handled in accordance with the procedures set forth in the MOA. We
 encourage CBP to remind its personnel of these procedures.




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 33
 Appendix A
 Purpose, Scope and Methodology


 We conducted this review at the request of the Senate Committee on
 Homeland Security and Governmental Affairs, the House Committee on
 Energy and Commerce, and the House Permanent Subcommittee on
 Investigations to answer the following questions:

     •    Are the current layers of container security effective in mitigating the
          smuggling threat?
     •    Is DHS learning from and adjusting its operations?
     •    Is DHS incorporating the lessons learned to improve its targeting
          systems and operations?

 We conducted our fieldwork from May 16, 2006, through August 24, 2006.
 During this period, we interviewed 62 people in CBP, ICE, DHS HQ, and
 members of the maritime shipping community, and we attended a CSI
 conference. We traveled to Seattle, Washington, and Long Beach, California,
 to interview CBP and ICE personnel and tour CBP port facilities, terminals,
 container ships, and examination facilities. We also traveled to Secaucus,
 New Jersey, to interview executives from Nippon Yusen Kaisha and China
 Shipping Container Lines.

 We examined many documents related to CBP and ICE special operations,
 operational statistics, correspondence, port musters, post-event analyses,
 procedural manuals, and program requirements. We reviewed reports issued
 by the General Accountability Office, the Congressional Research Service, the
 Congressional Budget Office, and the Senate Permanent Subcommittee on
 Investigations.

 This review was conducted under the authority of the Inspector General Act of
 1978, as amended, and according to the Quality Standards for Inspections
 issued by the Presidents Council on Integrity and Efficiency.




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 34
 Appendix B
 Management Response to Draft




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 35
 Appendix B
 Management Response to Draft




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 36
 Appendix B
 Management Response to Draft




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 37
 Appendix B
 Management Response to Draft




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 38
 Appendix B
 Management Response to Draft




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 39
 Appendix C
 Congressional Request Letter




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 40
 Appendix C
 Congressional Request Letter




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 41
 Appendix C
 Congressional Request Letter




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 42
 Appendix C
 Congressional Request Letter




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 43
     Appendix D
     CBP and ICE Modifications Made in Response to Incidents



CBP Modifications Made in Response to Incidents

     C-TPAT
     • Established procedures for handling members involved in human
        smuggling incidents, including mandatory assessment and correction of
        security vulnerabilities at foreign ports.
     • Updated minimum-security criteria to require sea carriers to screen new
        customers for security risks and ensure that their nonvessel-operator
        common carriers commit to C-TPAT security recommendations.

     CSI
     • Continues negotiations in expanding to ports in the Chinese region of
        Shenzhen, including Shekou, the port where the containers were laden.
     • Negotiating for the submission of additional data elements to improve
        targeting in general and targeting for Chinese stowaways in particular.

     Domestic Port Targeting
     • Developed Automated Targeting System human smuggling filters and
       research procedures.
     • Increased targeting staff in CBP Los Angeles/Long Beach.
     • Developed the Integrated Threat Analysis Group vessel targeting
       methodology in Los Angeles/Long Beach.
     • Lowered automated targeting system threshold scores for mandatory
       examinations in Seattle/Tacoma.

     Domestic Port Enforcement
     • Negotiated with terminal operators to obtain containers targeted for human
       smuggling more quickly.
     • Conducted examinations of suspicious containers immediately or soon
       after discharge.
     • Implemented daily coordination with USCG using Integrated Threat
       Analysis Group reports at Los Angeles/Long Beach.
     • Boarded vessels to observe containers for smells, sounds, trash, and to
       question crewmembers.
     • Maintained surveillance on suspicious vessels or containers.
     • Increased patrols.




    A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                   Smuggling in Maritime Cargo Containers
                                  Page 44
     Appendix D
     CBP and ICE Modifications Made in Response to Incidents




ICE Modifications Made in Response to Incidents
     •   Improved methods for obtaining information from the Chinese
         government.




    A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
                   Smuggling in Maritime Cargo Containers
                                  Page 45
 Appendix E
 Major Contributors to the Report




 William McCarron, Chief Inspector, Department of Homeland Security,
 Office of Inspections

 Elizabeth Kingma, Senior Inspector, Department of Homeland Security,
 Office of Inspections

 Russell Lundberg, Inspector, Department of Homeland Security, Office of
 Inspections

 Lawrence Anderson, Inspector, Department of Homeland Security, Office of
 Inspections




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 46
 Appendix F
 Report Distribution


 Department of Homeland Security

 Secretary
 Deputy Secretary
 Chief of Staff
 Deputy Chief of Staff
 General Counsel
 Assistant Secretary for Public Affairs
 Assistant Secretary for Policy
 Assistant Secretary, Legislative and Intergovernmental Affairs
 Chief Security Officer
 Assistant Secretary for Immigration and Customs Enforcement
 Commissioner for Customs and Border Protection
 DHS OIG Liaison
 CBP Audit Liaison
 ICE Audit Liaison
 Chief Privacy Officer

 Office of Management and Budget

 Chief, Homeland Security Branch
 DHS Program Examiner

 Congress

 Congressional Oversight and Appropriations Committees, as appropriate




A Review of CBP and ICE Responses to Recent Incidents of Chinese Human
               Smuggling in Maritime Cargo Containers
                              Page 47
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or
noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL STOP 2600,
Attention: Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer and
caller.
